IN THE SUPREME COURT OF THE UNITED STATES

No. 19-1069

TAKEDA PHARMACEUTICAL COMPANY, LTD.,
TAKEDA PHARMACEUTICALS USA, INC.,
AND ELI LILLY & COMPANY,

Petitioners,
v.

PAINTERS AND ALLIED TRADES DISTRICT
COUNCIL 82 HEALTH CARE FUND, et al.,

Respondents.

CERTIFICATE OF SERVICE

I, Cory L. Andrews, counsel for amicus curiae Washington Legal Foundation
(WLF) and a member of the Bar of this Court, certify that on this 27th day of March,
2020, three copies of WLF’s brief were mailed to the following:

Jonathan S. Franklin

NORTON ROSE FULBRIGHT US LLP

799 Ninth Street, NW

Washington, DC 20001

(202) 662-0466

Jonathan. Franklin@nortonrosefulbright.com
Counsel for Petitioners

R. Brent Wisner

BAUM, HEDLUND, ARISTEL & GOLDMAN PC
10940 Wilshire Boulevard, 17th Floor
Los Angeles, CA 90024

(301) 207-3233
rbwisner@baumhedlundlaw.com

Counsel for Respondents
Under Supreme Court Rule 29.3, I certify that I delivered an electronic copy of

WLP brief to counsel of record at the e-mail addresses above, and that all parties

required to be served have been served.

Dated: March 27, 2020

Cory L. Andrews

WASHINGTON LEGAL FOUNDATION
2009 Massachusetts Ave., NW
Washington, DC 20036

(202) 588-0302
candrews@wlf.org

Counsel for Amicus Curiae
Washington Legal Foundation
